HHS/OIG, Audit -"Review Of Cost Sharing and Cost Transfers At The University of
Rochester For The Period July 1, 2002 to June 30, 2003,"(A-02-05-02000)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Cost Sharing and Cost Transfers At The University of Rochester For The
Period July 1, 2002 to June 30, 2003," (A-02-05-02000)
September 21, 2005
Complete
Text of Report is available in PDF format (531 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report states that the University of Rochester has procedures in place to document
cost sharing; removed salary above the cap when submitting grant applications and claims
for Federal reimbursement for NIH projects and properly included salary above the cap in
the calculation of the F&A cost rate; developed and implemented written cost transfer
procedures and controls; and, sufficiently justified and supported cost transfers to NIH
projects in accordance with OMB Circular No. A-21 and A-110, as well as the NIH Grant's Policy.  The
report contained no recommendations.